September 30, 2009

GLORIA E. TYSON
MANAGER, CHICAGO CUSTOMER SERVICE DISTRICT

SUBJECT: Audit Report – Air Networks – Chicago O’Hare Airport Mail Center
         Operations (Report Number NL-AR-09-011)

This report presents the results of our self-initiated audit of operations at the Chicago
O’Hare Airport Mail Center (AMC) (Project Number 09XG015NL000). Our objectives
were to determine whether operations were efficient and economical. See Appendix A
for additional information about this audit.

Conclusion

The Chicago AMC operated at lower efficiency levels for some operations as compared
to national productivity standards or to similar operations at other facilities. We also
found the Chicago AMC misaligned some workhours with workload in various
operations. As a result, the Postal Service incurred approximately $10.6 million in
unnecessary costs during our review period.

Productivity and Efficiency

The sack sorter and platform operations at the Chicago AMC were inefficient compared
to national productivity standards or similar operations at other facilities. This occurred
because Chicago AMC management did not (1) enforce established productivity
standards for the sack sorter operation; (2) establish productivity standards for the
platform operation; (3) always provide adequate supervision over these operations; and
(4) follow Postal Service policies and procedures for volume and workhour reporting.1
As a result, the Chicago AMC incurred 74,290 in unnecessary workhours with a
monetary impact totaling about $3.5 million for the period reviewed. See Appendix B
for our detailed analysis of this topic.




1
 Employees did not follow the policies and procedures for volume and workhour reporting included in Handbook
M-32 as required.
Air Networks – Chicago O’Hare Airport                                                               NL-AR-09-011
 Mail Center Operations



We recommend the Manager, Chicago Customer Service District:

1. Enforce existing productivity standards for the sack sorter operation and establish
   and enforce appropriate productivity standards for the platform operation to reduce
   workhours and increase efficiency.

2. Provide adequate supervision over the sack sorter and platform operations to
   include ensuring that volume and workhour reporting requirements are followed.

Management’s Comments

Management agreed with our findings and recommendations. Management agreed that
employees need to meet productivity standards to enable a reduction in workhours and
increase efficiency of the sack sorter operation. They addressed low productivity
through the drastic reduction of overtime and the repositioning of daily staffing as mail
volume warrants. Management also plans to realign staffing levels on all tours at the
facility, monitor staff, and run reports to ensure employees are clocked into the proper
operations. For the platform operations, management stated they are addressing
productivity by monitoring Transportation Information Management Evaluation System
reports and holding turnover meetings at the end of each tour that will include
productivity discussions.

In responding to recommendation 2, management stated they conducted a staffing and
scheduling study of the Chicago AMC and will implement changes in October 2009
based on the study. Management already held discussions with Chicago AMC
managers and supervisors to address unproductive idle time in. Management will also
provide regular stand-up talks to address productivity and will conduct random audits to
ensure employees engage in efficient work practices and units have proper clock rings.

We have included management’s comments, in their entirety, in Appendix C.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the findings and
recommendations and their corrective actions should resolve the issues identified in the
report.

Overstaffed Operations

The Chicago AMC misaligned some workhours with workload for Express Mail® and
automated package processing system (APPS) operations.2 This occurred because



2
 Area management stated that there has been a significant volume decrease for the operation since placing the
APPS machine at the Chicago AMC and acknowledged that current volumes do not allow optimal use of the
machine.


                                                        2
Air Networks – Chicago O’Hare Airport                                                               NL-AR-09-011
 Mail Center Operations


supervisors were not able to provide adequate oversight of the operations3 and were
not enforcing basic timekeeping policies.

Consequently, the Chicago AMC used about 165,000 excess workhours for the
operations, resulting in costs of about $7.1 million for idle or unaccounted4 for time
during our review period. See Appendix B for our detailed analysis of this topic.

We recommend the Manager, Chicago Customer Service District:

3. Ensure staff is scheduled commensurate with the mail flow and volume for Express
   Mail and Automated Package Processing System operations and adjust operational
   workhours accordingly.

4. Provide adequate levels of supervision for Express Mail and Automated Package
   Processing System operations and ensure employees properly charge their
   workhours to the correct operations.

Management’s Comments

Management agreed with our recommendations and our finding related to the APPS
operations, but did not fully agree with our finding on the Express Mail operation.
Management acknowledged some of the time was unproductive for the operation, but
stated that, because of poor clocking habits, hours charged to operations were not
always accurate. Management acknowledged the operation was not staffed
commensurate with volume and had already decided to move the volume to other
facilities because of significant volume drops in the Chicago metro area.

Management disagreed that the Express Mail operation was not staffed commensurate
with mail flow and volume levels and stated they staff the operation to meet the inbound
and outbound schedules of air network operations. However, management stated they
will review necessary staffing and scheduling adjustments based on fiscal year (FY)
2010 mail volume.

Regarding recommendation 4, management reiterated their actions taken and planned
in their response to recommendation 2 in this report.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the findings and
recommendations and their corrective actions should resolve the issues identified in the
report.

Regarding our conclusion that the Express Mail operation was not staffed
commensurate with mail flow and volume levels, our observations showed that
3
  We noted extended periods when a single substitute supervisor would be responsible for three operations covering
a large area of the facility.
4
  Fewer hours should have been charged to the operations based on operational peak times and volume.


                                                         3
Air Networks – Chicago O’Hare Airport                                      NL-AR-09-011
 Mail Center Operations


management assigned staff to operations when there was no mail volume to be worked.
We also found that employees were not clocking into and out of the operation as
required, and therefore not properly accounting for their time.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. We appreciate the prompt action already taken and
will continue working with management to obtain support for those actions in the
process of closing the recommendation. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that they can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Jordan M. Small
    Jo Ann Feindt
    Jacqueline M. Krage
    Cynthia F. Mallonee
    Ruby D. Branch
    Bill Harris




                                          4
Air Networks – Chicago O’Hare Airport                                                          NL-AR-09-011
 Mail Center Operations


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service air transportation network includes AMCs located at several
airports nationwide. Depending on the size of these installations, they are sometimes
called Airport Mail Facilities (AMFs) or Air Transport Offices (ATOs). Their principal or
“core” mission is to:

        Receive mail from the Postal Service ground transportation network and
         distribute that mail to commercial air carriers for airport-to-airport transportation.

        Monitor mail in air carriers’ possession and supervise air carriers’ mail handling
         operations during aircraft loading and unloading.

        Recover mail from air carriers and redistribute it for further transportation.

In addition to “core operations,” some AMCs perform other functions normally
associated with mail processing facilities or local post offices. These functions can
include mail sorting, retail operations, and post office (PO) delivery boxes. From
January 2008 through June 2009 the Postal Service spent about $336 million to operate
AMCs.5


            Non-core AMC operations
             include manually sorting
           Express Mail. These sorting
        functions are usually performed at
               processing facilities.

            Express Mail Operation –
                 Chicago AMC,
                  June 2009.



Events in recent years have reduced operational requirements for AMCs and the
number of facilities that are still considered AMCs has decreased significantly. The
Postal Service began initiatives to close many of the facilities and have only limited
operations to tender and receive mail from air transportation networks.

The AMC Standardization Initiative – In FY 2005, the Postal Service began
standardizing AMCs. This effort included eliminating collateral activities normally
associated with other facilities such as processing plants or POs and restricting the
AMC mission to core functions.


5
 The four AMCs identified were the Chicago AMC, the San Francisco AMC, the San Juan AMF, and the John F.
Kennedy AMC/International Service Center.


                                                     5
Air Networks – Chicago O’Hare Airport                                            NL-AR-09-011
 Mail Center Operations


The Integrated Air Strategy – In January 2006, management formalized a nationwide
integrated air strategy. Management explained that passenger airlines were not as
reliable as the Postal Service needed them to be and that, under the new strategy, the
Postal Service would reduce reliance on passenger airlines and expand existing cargo
air transportation. Finally, officials explained that the strategy would affect the mission
of AMCs because, in the future, contractors would perform AMC core operations,
thereby reducing or eliminating the need for AMCs. In July 2006, the Postal Service
formally announced that it was considering outsourcing the principal AMC core
functions — the tender and receipt of mail.

            Postal Service officials explained
               that American Airlines is a
            passenger airline with a reliable,
            on-time performance record. The
              agency awarded the airline a
             contract to continue providing
                         service.

             American Airlines jet arriving at
           Chicago O’Hare International Airport,
                      June 2, 2009.


As a result of the AMC standardization initiative, the integrated air strategy, and the
resulting reduced reliance on passenger airlines, by July 2009, the Postal Service has
converted 67 AMCs to ATOs or closed them; identified 11 to be converted to either a
Processing and Distribution Center (P&DC), Logistics and Distribution Center or
International Service Center; and identified two that will remain as AMCs pending
possible re-classification.

The Chicago O’Hare AMC – The Chicago O’Hare AMC is located at the Chicago
O’Hare International Airport. It is approximately 350,000 square feet with an
accompanying work force of over 400 employees. From January 2008 to June 2009, the
Postal Service spent approximately $58 million to operate the facility. In addition to core
AMC functions, the Chicago AMC provides some sorting operations normally
associated with processing plants. Our initial plans to audit AMCs included the Chicago
O’Hare AMC because Headquarters Network Operations officials identified it as one of
the facilities it would not convert to an ATO or close.

OBJECTIVES, SCOPE, AND METHODOLOGY

This report is the fourth in a series of reports on Postal Service air network AMC
operations. We evaluated whether Chicago AMC operations were efficient and
economical.

We interviewed officials from Postal Service Headquarters Network Operations and the
Great Lakes Area and the Chicago District. We interviewed supervisors and employees
and observed and photographed operations at the AMC, Central IL Presort Annex, and
mailer facilities.



                                                   6
Air Networks – Chicago O’Hare Airport                                            NL-AR-09-011
 Mail Center Operations


We examined relevant Postal Service policies and procedures and other related
documents, including:

       The Postal Service’s commercial air contracts with passenger airlines,
        announced on September 29, 2006.

       The Postal Service’s Integrated Air Strategy, dated January 9, 2006.

       The original FedEx contract, dated January 10, 2001, and the renegotiated
        FedEx contract, dated July 31, 2006.

       The United Parcel Service contract dated June 26, 2006.

Using computer-assisted analysis techniques, we examined Postal Service computer
generated data and used it to analyze mail volume, expenditures, and productivity. We
analyzed data in the Time and Attendance Control System, Management Operating
Data System, Mail Image and Reporting System (MIRS), and Transportation
Information Management Evaluation System. We conducted the analysis to determine
if management could improve processes and, as a result, reduce workhours and labor
costs. We did not audit or comprehensively validate the data; however, we noted
several weaknesses that constrained our work. For example, the Chicago AMC did not
routinely compile workhour data for its processing operations and did not ensure that
employees were charging workhours to the proper operations according to standard
procedures for mail processing facilities.

We supported our audit conclusions by applying alternate audit procedures. For
example, to compensate for inadequate workhour data and productivity standards, we
used nationally established standards when available and examined source documents.
We also observed, inspected, and photographed operations and applied reasonable
estimates or approximations.

In order to validate our analytical assumptions, observations, and conclusions, we
routinely talked to senior management officials throughout our audit, asked for their
feedback, considered their perspective, and included their comments where
appropriate. We applied conservative principles to our workhour and cost reduction
estimates and considered management’s possible changes to operations reviewed.

We conducted this performance audit from January through September 2009 in
accordance with generally accepted government auditing standards and included tests
of internal controls that were necessary under the circumstances. Those standards
require that we plan and perform audit work to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on September 10, 2009, and included their
comments where appropriate.


                                            7
Air Networks – Chicago O’Hare Airport                                             NL-AR-09-011
 Mail Center Operations



PRIOR AUDIT COVERAGE

The U.S. Postal Service Office of Inspector General (OIG) previously issued the
following AMC reports with efficiency findings similar to those contained in this report.

                                                                               Monetary
                                                                                Impact
                Report Title            Report Number   Final Report Date    (in millions)
     Efficiency Review of the Los
     Angeles, California, Worldway      NO-AR-06-006    September 12, 2006         $192.0
     Airport Mail Center
     Air Networks – Airport Mail
                                        NL-AR-07-001    December 22, 2006          $107.0
     Center Operations – Atlanta
    Air Networks – Dallas Airport
                                        NL-AR-08-009    September 30, 2008           $34.7
    Mail Center Operations




                                                8
Air Networks – Chicago O’Hare Airport                                                                   NL-AR-09-011
 Mail Center Operations


                                 APPENDIX B: DETAILED ANALYSIS

Productivity and Efficiency

Some Chicago AMC operations were inefficient compared to national productivity
standards and similar operations at other facilities. Specifically, we identified excessive
workhours, including overtime, and associated costs for the platform and sack sorter
operations from January 2008 through June 2009, as follows:

                                                  Unnecessary Unnecessary
                            Operation                Hours       Cost
                            Platform6                   3,538     $137,756
                            Sack Sorter7               40,687    1,881,725
                            Overtime8                  30,065    1,480,456
                            Total                      74,290   $3,499,937

We identified numerous instances when unsupervised employees were idle or not fully
engaged in work activities. For example, we observed employees working on personal
laptops, sitting and reading magazines or newspapers, and talking on personal cellular
phones on the workroom floor during official workhours.

This occurred because management did not (1) enforce productivity standards for the
sack sorter, (2) establish productivity standards for the platform operations, (3) follow
policies and procedures for volume and workhour reporting, and (4) always provide
adequate supervision over operations.

              The sack sorter operation keying
               stations at the Chicago AMC.

                Our analyses of the operation
              revealed that employees were not
                fully engaged or were idle and
                opportunities exist to improve
              efficiency and reduce workhours.



We concluded Chicago AMC managers did not have all the tools to effectively control
operations and could not gauge the efficiency and productivity of the operations. As a
result, the Chicago AMC used excessive workhours to perform the work and the Postal
Service incurred about $3.5 million in unnecessary costs.




6
  Excess workhours determined by analyzing actual performance against similar Postal Service facilities in Illinois
since no national standards existed for these operations.
7
  Excess workhours determined by analyzing actual performance against national productivity standards for the
operation.
8
  Excess workhours based on unjustified need for overtime.


                                                           9
Air Networks – Chicago O’Hare Airport                                                                   NL-AR-09-011
 Mail Center Operations


Overstaffed Operations

The Chicago AMC misaligned some workhours with workload. As a result, the facility
used more workhours than necessary and incurred about $7.1 million in excess costs. .
Specifically:

        Express Mail Staffing – Chicago AMC managers frequently assigned staff to sort
         Express Mail when there was very little of it to work. This included assigning staff
         during Tour 2, when no Express Mail was dispatched from the facility. Thus,
         from January 2008 through June 2009, we analyzed Express Mail staff
         workhours during non-peak operational hours and concluded the Chicago AMC
         charged 62,834 excess workhours to the Express Mail operation.

                  Express Mail inbound operations have
                 critical entry/clearance times of 6:15 A.M.
                                 and 7:00 A.M.

               We determined employees were working on
                the operation as early as 11:00 P.M. of the
                prior evening, even though the majority of
               mail was not available for the operation until
                             about 5:30 A.M.

                          Picture taken June 2009.


        Automated Package Processing System (APPS) Staffing – Utilization of the
         APPS operation was extremely low and mail could have been processed on the
         operation in about 9 hours, instead of the 20 hours used daily. Chicago AMC
         management acknowledged the limited utilization of the operation because of
         significant declines in mail volume, but did not adjust staff workhours. As a
         result, from March 2008 to June 2009,9 the Chicago AMC used 102,105 excess
         workhours in this operation.




9
  The APPS machine was relocated in January 2008 from the Palatine P&DC to the Chicago AMC facility. Data
regarding the operation of the machine was recorded and maintained within the Postal Service’s MIRS beginning
March 2008. Area officials explained that the mail volume has significantly declined, impacting productivity of the
operation.


                                                          10
Air Networks – Chicago O’Hare Airport                                                                NL-AR-09-011
 Mail Center Operations




             APPS operation located at the
              Chicago AMC, June 9, 2009.

             Utilization of the machine was
                    extremely low and
              management did not adjust
                workhours to match mail
                         volume.




These conditions occurred because supervisors were not able to provide adequate
oversight for the operations; and were not enforcing basic policy for employees to
badge on and off the operations, impacting the ability to determine appropriate staffing
levels. Without accurate clock rings, data to calculate labor hours expended and
needed would not be accurate. In addition, we noted long periods of time when there
were no supervisors covering a large portion of the facility, increasing the opportunity for
idle time. For the Express Mail operation, we noted idle periods when employees were
congregated in groups, even though there was mail to be worked.

The unnecessary workhours and associated costs that we identified from January 2008
through June 2009 are as follows.

                                                     Excess    Excess
                                Operation            Hours       Cost
                                Express10              62,834 $2,765,300
                                APPS11                102,105 4,323,714
                                Total                 164,939 $7,089,014

If Chicago AMC managers properly aligned work schedules with peak workhours and
operational requirements and ensured proper workhour charges to the operations, they
could have used 164,939 fewer workhours and avoided excess costs of $7,089,014
from January 2008 through June 2009.




10
   To calculate excess workhours and costs, we subtracted the amount of labor hours and its corresponding value
charged to the operation from a reasonable estimate based upon data, mail arrival and clearance times, discussion
with managers, and our own observations.
11
   To determine the excess hours and costs identified for the APPS operation, we calculated the workhours and labor
costs for the review period and subtracted the optimum workhours and costs based on machine throughput and
productivity target.


                                                        11
Air Networks – Chicago O’Hare Airport                      NL-AR-09-011
 Mail Center Operations


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                        12
Air Networks – Chicago O’Hare Airport        NL-AR-09-011
 Mail Center Operations




                                        13
Air Networks – Chicago O’Hare Airport        NL-AR-09-011
 Mail Center Operations




                                        14
Air Networks – Chicago O’Hare Airport        NL-AR-09-011
 Mail Center Operations




                                        15
